No. 19-680
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

KENNETH SEALEY, in his
individual capacity; and
ROBERT E. PRICE, Administrator C.T.A. of
the Estate of Joel Garth Locklear, Sr.,
Petitioners,
v.

J. DUANE GILLIAM, Guardian of the
Estate of Leon Brown; and
RAYMOND C. TARLTON, Guardian Ad Litem
for Henry Lee McCollum,
Respondents.
-------------------------- ♦ --------------------------

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Fourth Circuit
-------------------------- ♦ --------------------------

REPLY TO RESPONSE TO
PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

James R. Morgan, Jr.
Counsel of Record
Bradley O. Wood
Sonny S. Haynes
WOMBLE BOND DICKINSON (US) LLP
One West Fourth Street
Winston-Salem, North Carolina 27101
(336) 721-3600
jim.morgan@wbd-us.com
brad.wood@wbd-us.com
sonny.haynes@wbd-us.com
Counsel for Petitioners

Dated: March 13, 2020

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ....................................... ii
INTRODUCTION ....................................................... 1
A.

The Fourth Circuit’s Relevant
Holding Is That A District Court
Is Free To Disregard Binding
Supreme
Court
Authority
Regarding Qualified Immunity:
The Fourth Circuit Decision Has
Nothing To Do With “Forfeiture”.......... 2

B.

The District Court Also Failed
To
Follow
Clear
Supreme
Court Precedent On Qualified
Immunity ............................................... 6

C.

The Other Arguments Advanced
By Respondents Are Without
Merit .................................................... 10

CONCLUSION ......................................................... 13

ii
TABLE OF AUTHORITIES
Page(s)
CASES
Anderson v. Liberty Lobby,
477 U.S. 242, 106 S. Ct. 2505,
91 L. Ed. 2d 202 (1986) .................. 9, 10, 11, 12
Ashcroft v. Iqbal,
556 U.S. 662, 129 S. Ct. 1937 (2009) ............. 11
Celotex Corp. v. Catrett,
477 U.S. 317, 106 S. Ct. 2548,
91 L. Ed. 2d 265 (1986) .................................... 9
Crawford-El v. Britton,
523 U.S. 574, 118 S. Ct. 1584 (1998) ............... 9
First National Bank of Arizona v.
Cities Service Co.,
391 U.S. 253, 88 S. Ct. 1575 (1968) ............... 12
Gilliam v. Sealey,
932 F.3d 216 (4th Cir. 2019) ............... 1-2, 3, 11
Hunter v. Bryant,
502 U.S. 224, 112 S. Ct. 534 (1991) ............... 12
Saucier v. Katz,
533 U.S. 194, 121 S. Ct. 2151,
150 L. Ed. 2d 272 (2001) .................. 8, 9, 11, 12

1
INTRODUCTION
Respondents attempt to defeat Petitioners’
Petition for Writ of Certiorari (hereinafter “Petition”)
by wrongly stating that “[t]his is not a qualifiedimmunity petition” and by mischaracterizing the
Fourth Circuit’s published opinion as a decision “on
a simple forfeiture issue.”
As shown in the Petition and below,
Respondents
completely
mischaracterize
the
published Fourth Circuit decision in this case. The
Fourth Circuit opinion does not deal with “forfeiture”
at all. It contains no discussion of forfeiture, and
neither cites nor discusses any cases dealing with
forfeiture. Similarly, although Respondents’ Brief in
Opposition repeatedly uses the words “forfeit,”
“forfeited,” and “forfeiture,” these words do not
appear in the Fourth Circuit opinion. Simply put,
the Fourth Circuit decision in this case has nothing
to do with “simple forfeiture.”
Respondents’
misrepresentation to the contrary should be
disregarded.
Instead, as explained at length in the Petition,
the Fourth Circuit, in its published opinion, ignored
clear Supreme Court precedent directing that a
district court must rule on the qualified immunity
issue at the Rule 56 stage as to every claim asserted
by Plaintiffs. The Fourth Circuit held that “it would
be counterproductive to require a district court to
wade through convoluted issues of fact” to determine
the individual officers’ entitlement to qualified
immunity as to each of Plaintiffs’ claims in this case.
Gilliam v. Sealey, 932 F.3d 216, 229-30 (4th Cir.

2
2019). This is contrary to binding Supreme Court
precedent.
The Court should grant the Petition on all
questions or, alternatively, summarily reverse the
Fourth Circuit. The Fourth Circuit should not be
permitted to defy the clear directives of this Court
that when a public officer properly moves for
summary judgment on the ground of qualified
immunity, a district court is required to rule upon
the qualified immunity issue at the summary
judgment stage as to each of Plaintiffs’ asserted
claims.
A.

The Fourth Circuit’s Relevant Holding Is
That A District Court Is Free To
Disregard
Binding
Supreme
Court
Authority
Regarding
Qualified
Immunity: The Fourth Circuit Decision
Has Nothing To Do With “Forfeiture”

This is a case in which the Fourth Circuit held
that a district court is free to disregard binding
Supreme Court authority regarding qualified
immunity. More specifically, as explained at length
in the Petition, the relevant holding of the Fourth
Circuit is as follows:
[T]he defense of qualified immunity is a
defense for individual defendants. But
it would be counterproductive to require
a district court to wade through
convoluted issues of fact at this stage in
order to determine individual liability,
where: (1) Appellants did not raise
individualized
qualified
immunity

3
arguments before the district court but
instead asserted collective qualified
immunity defenses; (2) the facts have
yet to be resolved, and the district court
only determined whether qualified
immunity applies as a matter of law;
and
(3)
appellees
alleged
that
Appellants acted in concert to violate
their constitutional rights. Accordingly,
the district court did not improperly
apply the test for qualified immunity by
waiting to parse the liability of each
individual defendant as to each claim
until the facts are determined.
Gilliam, 932 F.3d at 229-30.1 In other words, the
Fourth Circuit held that the district court was free to
disregard its duty to analyze each individual officer’s
entitlement to qualified immunity as to each claim
at the Rule 56 stage because: (1) the Fourth Circuit
opinion inaccurately stated that Sealey and Locklear
did not argue to the district court that these officers
were entitled to qualified immunity based on each
officer’s individual actions; (2) the facts were
“convoluted”; (3) the facts “have yet to be resolved” at
trial; and (4) the Plaintiffs “alleged” that the officers
acted in concert to violate their constitutional rights.
App. 22a.
Petitioners would point out that the phrase “collective
qualified immunity,” a phrase used by the Fourth Circuit in
this case, has no meaning. Qualified immunity is a defense
available solely to individual officers; therefore, there is no such
thing as “collective qualified immunity.” Indeed, a Westlaw
search conducted by the undersigned reveals that the Fourth
Circuit decision in this case is the one and only case in which
the phrase “collective qualified immunity” appears.

1

4
The Fourth Circuit opinion holding that a
district court is free to disregard its duty to analyze
each individual officer’s entitlement to qualified
immunity at the Rule 56 stage is clearly erroneous.
Under binding Supreme Court authority, a district
court: (1) must rule upon the qualified immunity
issue at the earliest possible stage of the proceeding;
(2) must not postpone a ruling on qualified immunity
until after the Rule 56 stage; (3) must hold plaintiffs
to their burden of showing that each officer, through
his own personal actions, violated the Constitution;
and (4) must properly apply the qualified immunity
test at the Rule 56 stage by analyzing whether each
individual officer is entitled to qualified immunity as
to each claim. This was explained in detail in the
Petition.
Significantly, Respondents do not even
attempt to defend the Fourth Circuit’s holding that a
district court is free to disregard its duty to analyze
each individual officer’s entitlement to qualified
immunity as to each claim at the Rule 56 stage. The
reason Respondents make no arguments attempting
to defend the Fourth Circuit’s holding in this regard
is because it is indefensible.
Instead, Respondents attempt to defeat the
Petition by completely mischaracterizing the Fourth
Circuit’s holding, asserting that it is a holding about
“forfeiture” and that Petitioners are seeking review
of “a factbound application of . . . forfeiture . . . .”
This is a complete misrepresentation of the Fourth
Circuit’s holding. The Fourth Circuit opinion has
nothing to do with “forfeiture.” It contains no
discussion of forfeiture, and cites no cases dealing
with forfeiture. Indeed, although Respondents’ Brief

5
in Opposition repeatedly uses the words “forfeit,”
“forfeited,” and “forfeiture,” these words do not
appear in the Fourth Circuit opinion. Similarly, the
cases regarding “forfeiture” cited by Respondents in
their Brief in Opposition are not cited or discussed
by the Fourth Circuit.
In other words, Respondents’ assertion that
the Fourth Circuit decision is a decision about
“simple forfeiture” is fatally flawed. If the Fourth
Circuit had intended for its decision to have
something to do with “forfeiture,” it would have said
so. No person reading the Fourth Circuit decision –
including district court judges and members of the
Fourth Circuit bar – would ever suspect that the
decision has something to do with “forfeiture.” The
Fourth Circuit’s opinion has nothing to do with
forfeiture; instead, the Fourth Circuit’s clear holding
is that district courts in the Fourth Circuit are free
to disregard their duty to analyze each individual
officer’s entitlement to qualified immunity as to each
claim at the Rule 56 stage.
If the Fourth Circuit’s decision in this case is
not corrected by the Supreme Court, the district
courts in the Fourth Circuit will be free to disregard
clear Supreme Court precedent and to refuse to
fulfill their duty to rule on the issues of qualified
immunity at the Rule 56 stage as to each officer and
each claim. This is contrary to established Supreme
Court jurisprudence, and contrary to the law as
stated in other circuits. The Supreme Court should
not allow this Fourth Circuit decision to stand.

6
B.

The District Court Also Failed To Follow
Clear Supreme Court Precedent On
Qualified Immunity

In an Order dated March 1, 2018, the district
court denied the motions for summary judgment of
Sealey and Locklear in their individual capacities as
to all claims, rejecting the officers’ claims of
entitlement to qualified immunity. In so ruling, the
district court failed to follow clear Supreme Court
precedent by failing to fulfill its duty to analyze each
claim of plaintiffs as to each individual defendant.
Throughout its analysis of the various defendants’
motions for summary judgment, the district court
referred to actions or alleged actions of
undifferentiated “defendants,” instead of identifying
specific alleged wrongful acts of Sealey or of
Locklear. For example, the district court stated that,
“[g]enuine issues of material fact exist as to whether
Plaintiffs’ constitutional rights were violated,”
without any reference to what action or actions by
Sealey or Locklear violated which Plaintiffs’ rights.
App. 69a. Later in its decision, the district court
stated that, “the Court cannot determine at this time
whether Plaintiffs’ constitutional rights were
violated,” without regard to what specific actions of
which defendant may have violated Plaintiffs’ rights.
App. 84a. Finally, the district court made it clear
that it was not going to analyze what action or
actions by each individual defendant violated which
Plaintiffs’ constitutional rights. Instead, the district
court stated that, “in light of plaintiffs’ allegations
that defendants worked in concert to deny the
plaintiffs their constitutional rights, as well as the
specifics regarding the grouping of SBI and Robeson
County defendants to engage in different aspects of

7
plaintiffs’ interrogations, arrests, and investigations,
the Court will not at this time attempt to parse the
liability of each officer as it relates to each claim.”
App. 84a.
(emphasis added). This was not a
throwaway line, as Respondents suggest; rather, it
distills the essence of the district court’s ruling: The
district court refused to apply the qualified
immunity analysis to the specific actions of Sealey
and Locklear at the Rule 56 stage. This was clear
error under binding Supreme Court authority.
Indeed, in a document filed in the Fourth
Circuit on August 27, 2018, Respondents specifically
acknowledged the district court’s holding that it was
refusing to properly apply the qualified immunity
analysis as to each claim asserted against each
officer. More specifically, in its August 27, 2018
filing in the Fourth Circuit, Respondents stated as
follows:
Further, as the District Court held,
there is no need at the qualifiedimmunity stage to “parse the liability of
each individual defendant as it relates
to each individual claim.” Tarlton, 2018
WL 1129976, at *14.
Plaintiff-Appellees’
Opposition
to
DefendantAppellants’ Motion to Modify Word Limits, Doc. 48,
p. 3.
This Fourth Circuit filing shows that
Respondents and their attorneys recognized, shortly
after the district court’s Order was issued, that the
crux or essence of the district court’s holding with
regard to qualified immunity was that it was
refusing to apply the proper qualified immunity

8
analysis to the specific actions of Sealey and
Locklear (or any officer) at the Rule 56 stage.
Respondents’ suggestion, that either Sealey or
Locklear somehow waived or forfeited their right to
have the district court rule on their entitlement to
qualified immunity as to each claim, is false. As
described at pages 8-19 of their Petition, Petitioners
in their individual capacities moved for summary
judgment in the district court as to all of Plaintiffs’
claims. In the summary judgment brief and the
statement of material facts filed by Petitioners,
Petitioners pointed out facts showing, among other
things, that during the investigation, Locklear and
Sealey worked under the direction of the SBI;
neither Sealey nor Locklear were involved in
processing the crime scene; that Locklear was not
involved in questioning McCollum; that Sealey was
not involved in questioning Brown; that Sealey and
Locklear provided copies of all notes and documents
that they created or obtained to members of the SBI
with the understanding that the notes and
documents would be produced to the District
Attorney’s Office; neither Sealey nor Locklear had
any involvement in obtaining or processing any
physical evidence; and that neither Sealey nor
Locklear had any involvement in requesting that
any evidence be examined or processed by the North
Carolina Crime Lab or the cancellation of any such
request. App. 96a, 134a. Citing the two-prong test
enunciated by this Court in Saucier v. Katz, 533 U.S.
194, 121 S. Ct. 2151, 150 L. Ed. 2d 272 (2001),
Petitioners pointed out in their summary judgment
brief that Plaintiffs had failed to show that either
defendant Sealey or defendant Locklear had taken
any action that violated Plaintiffs’ constitutional

9
rights. App. 90a–133a.
Defendants Sealey and
Locklear then clearly and specifically made
“individualized” qualified immunity arguments,
arguing that defendant Sealey, in his individual
capacity, and defendant Locklear, in his individual
capacity, were each entitled to qualified immunity in
light of the specific actions taken by each officer, the
specific facts of the case, and established law. App.
124a – 128a.
Under established Supreme Court law, all
Sealey and Locklear had to do at the summary
judgment stage was to “ ‘show [ ]’ – that is, point [ ]
out to the district court – that there is an absence of
evidence to support the nonmoving part[ies] case.”
Celotex Corp. v. Catrett, 477 U.S. 317, 324, 106 S.
Ct. 2548, 2554, 91 L. Ed. 2d 265 (1986). Once Sealey
and Locklear met their burden of showing that there
was an absence of evidence to support Plaintiffs’
claims against them, Plaintiffs were required at the
summary judgment stage to demonstrate that a
triable issue of fact existed as to each asserted claim
against Sealey and each asserted claim against
Locklear. Anderson v. Liberty Lobby, 477 U.S. 242,
248, 106 S. Ct. 2505, 2510, 91 L. Ed. 2d 202 (1986).
Moreover, under the first prong of Saucier, the
Plaintiffs had the burden of showing what specific
actions of Sealey, and what specific actions of
Locklear, violated the Constitution. See Crawford-El
v. Britton, 523 U.S. 574, 588-89, 118 S. Ct. 1584,
1592 (1998). Plaintiffs are not relieved of their
burden of proof simply by alleging that they have
been wronged or because the facts seem
“convoluted.” Under established Supreme Court
precedent, Plaintiffs could not defeat Sealey and

10
Locklear’s summary judgment motion with mere
allegations or general denials. Liberty Lobby, supra.
However, Plaintiffs failed to fulfill their
burden at the district court. Specifically, Plaintiffs
failed to identify specific facts showing that the
specific actions of Sealey, and/or the specific actions
of Locklear, violated Plaintiffs’ constitutional rights.
Instead, Plaintiffs, in their response to Sealey and
Locklear’s summary judgment brief, made general
allegations
regarding
what
undifferentiated
“defendants” allegedly did, without specifically
referencing evidence of specific actions taken by
Sealey or specific actions taken by Locklear. (Pls.’
Resp. to Sealey and Locklear’s Motion for Summ.
Judgment, Doc. 185).
Thus, if any party waived or forfeited any
rights or arguments before the district court, it was
Plaintiffs, who failed to bring forward evidence
showing what specific actions of Sealey and what
specific actions of Locklear constituted constitutional
violations as to each claim.
C.

The Other Arguments Advanced
Respondents Are Without Merit

By

At pages 25-26 of their Brief in Opposition,
Respondents argue that the Fourth Circuit was
correct in its holding that an officer’s entitlement to
qualified immunity may be defeated by the simple
allegation that the officer acted in concert with other
officers. This argument is without merit.
The Fourth Circuit specifically held in this
case that a district court need not rule on an

11
individual officer’s entitlement to qualified immunity
if a plaintiff “alleges” that multiple officers “acted in
concert.” Gilliam, 932 F.3d at 230. Respondents
suggest that perhaps the Fourth Circuit did not
intend to use the word “alleges;” however, “alleges”
is the word used both by the district court and the
Fourth Circuit. Id. As pointed out in some detail in
the Petition, under binding Supreme Court
precedent, in order to hold any individual liable
under Section 1983, plaintiffs must “prove that
each Government official defendant, through the
official’s own individual actions, has violated the
Constitution …[E]ach Government official . . . is only
liable for his or her own misconduct.” Ashcroft v.
Iqbal, 556 U.S. 662, 676-77, 129 S. Ct 1937 (2009).
This is relevant to the first prong of the Saucier
qualified immunity analysis. Saucier v. Katz, 533
U.S. 194, 201 (2001).
Thus, the Fourth Circuit’s published holding
that a court need not apply a qualified immunity
analysis as to each individual officer and each claim
if a plaintiff “alleges” that defendants acted in
concert is in direct conflict with binding Supreme
Court authority and the holdings of numerous
federal courts following this Court’s precedent.
Under well-established Supreme Court precedent, a
plaintiff cannot defeat an individual officer’s
entitlement to summary judgment based on qualified
immunity simply by alleging that the officer “acted
in concert” with other defendants. As the Supreme
Court stated in Liberty Lobby, supra, “a party
opposing a properly supported motion for summary
judgment may not rest upon mere allegations or
denials of his pleadings, but . . . must set forth
specific facts showing that there is a genuine issue

12
for trial.” Id., quoting First National Bank of
Arizona v. Cities Service Co., 391 U.S. 253, 288-89,
88 S. Ct. 1575, 1592 (1968). Thus, the Fourth
Circuit’s holding that a plaintiff can defeat an
officer’s entitlement to qualified immunity simply by
alleging that defendants “acted in concert” is directly
contrary to binding Supreme Court precedent.
Respondents also argue that the Supreme
Court should not grant the Petition because, in
Respondents’ somewhat biased estimation, at least
one of the Petitioners might face a trial as to at least
one of the Plaintiffs’ claims even after a proper
qualified immunity analysis. (Brief in Opposition, p.
30).
Even if Respondents’ assertion on this point
were true, it is beside the point. Petitioners Sealey
and Locklear – and, indeed, all public officers
asserting the defense of qualified immunity – are
entitled to have their qualified immunity defenses
properly evaluated as to each claim. As this Court
has consistently held, an officer’s qualified immunity
is an entitlement not to stand trial or face the other
burdens of litigation. See Saucier v. Katz, 533 U.S.
194, 200-201, 121 S. Ct. 2151, 2156 (2001); Hunter v.
Bryant, 502 U.S. 224, 227, 112 S. Ct. 534 (1991) (per
curiam). This is true as to every claim asserted by
Respondents. Petitioners are entitled not to go to
trial on any and all claims for which they have
qualified immunity. Respondents’ argument to the
contrary is completely without merit.

13
CONCLUSION
The Fourth Circuit’s opinion defies the
Supreme Court’s established jurisprudence on
qualified immunity. The Court should grant the
petition for writ of certiorari and reverse the decision
of the Fourth Circuit.
Respectfully submitted, this the 13th day of
March, 2020.
/s/ James R. Morgan, Jr.
James R. Morgan, Jr., N.C. State Bar No. 12496
Counsel of Record
Bradley O. Wood, N.C. State Bar No. 22392
Sonny S. Haynes, N.C. State Bar No. 41303
WOMBLE BOND DICKINSON (US) LLP
One West Fourth Street
Winston-Salem, NC 27101
Telephone: (336) 721-3600
Facsimile: (336) 721-3660
E-mail: Jim.Morgan@wbd-us.com
E-mail: Brad.Wood@wbd-us.com
E-mail: Sonny.Haynes@wbd-us.com
Counsel for Petitioners Kenneth Sealey and Robert E.
Price, Administrator C.T.A. of the Estate of Joel
Garth Locklear, Sr.

